                             i
                             ¡


 Department of Health and Human Services
            OFFICE OF
    INSPECTOR GENERAL




    OPERATION -RESTORE: TRUST

       REVIEW OF COSTS
          CLAIMED-BY
    HOME HEALTH SERVICES OF
SOUTH FLORIDA INC., d/b/a USA HOME
        HEALTH SERVICES




            ~ stRVICEs




          ~ Jrt tInspector
          ~o/'     JU GIBBSGeneral
                             BROWN
           ~~IT~-: SE~~~~~;~i~;96
           ,\l"liiS
                                                                                                                                 i
                           DEPARTMENT OF HEALTH &. HUMAN SERVICES                                    Ot1lce of Inspector Gener al.
("g.t-
'.
     '"
          /'."'0

                               SEP 30 1996                                                           Memorandum
                   Date

                   From   June Gibbs Brow
                          Inspector Gene 1             ~~
                   Subject Review of Costs aimed by Home Health Services of South Florida Inc" d/b/a USA
                          Home Health Services (A-04-95-01105)
                   To
                          Bruce C. Vladeck
                          Administrator
                          Health Care Finncing Adminstration .


                          Ths final report provides you with the results of our audit of Home Health Services of
                          South Florida Inc., d/b/a USA Home Health Services (USA) in Hialeah, Florida.

                          OBJECTIV
                          The audit objective was to determine whether the home health care services claimed by
                          USA met Medicare reimbursement guidelines.

                          SUMARY OF FINDINGS

                          We randomly selected for review 100 claims submitted by USA for Medicare
                          reimbursement during the fiscal year (FY) ended December 31, 1993. These claims
                          represent 1,784 home health services. Our review showed that 32 claims or 32 percent of
                          our sample contained 353 services (20 percent of the total services) that did not meet
                          Medicare guidelines, as follows:

                                 ~ 23 percent of the claims were for 262 services which, in the opinion of
                                          medical experts, were not reasonable or necessary;


                                 ~ 5 percent of the claims were for 69 services provided to beneficiaries who,
                                          in their own opinion, or in the opinion of medical experts, were not
                                          homebound;

                                 ~ 3 percent of the claims were for 17 services which physicians did not
                                          authorize; and


                                 ~ 1 percent of the claims were for 5 services not provided.

                          Cases in the latter two categories concern us and should be closely reviewed by the
                          Medicare fiscal intermediary (FI).
Page 2 - Bruce C. Vladeck

During the FY ended December 31, 1993, USA claimed $12 milion in 8,700 claims
representing 151,015 services. Based" on our review, we estimate that at least $1. 7 milion
did not meet the reimbursement guidelines and using the 90 percent confdence interval,
we believe the overpayment is between $1. 7 milion and $3.2 milion.


Although we found documentation that indicated USA monitored its own employees and
subcontractors, the results of our review indicated that the monitorig was not adequate to
ensure that claims submitted were for services that met Medicare reimbursement
guidelines. Neverteless, the guidelines make contractors, such as USA, responsible for
the actions of their subcontractors.


We recommend that the Health Care Fincing Adminstration (HCFA) require the FI to
instruct USA on its responsibilities to properly monitor its subcontractors for compliance
with the Medicare regulations and HCF A guidelines, monitor the PI and USA to ensure
that corrective actions are effectively implemented, direct the FI to investigate all cases of
possible fraud and refer them as necessary to the Office of Inspector General's (OIG)
Office of Investigations (01), and recover all overpayments.

In its written response to our draft report, HCFA agreed with our recommendations. The
complete text of HCFA's response is presented as Appendix E to this report.

BACKGROUND

Home Health Services of South Floria Inc., d/b/a USA Home Health Services


The USA is a Medicare certified home health agency (HHA) with a principal place of
business in Hialeah, Florida. The USA is a proprietary Florida corporation owned and
managed by South Eastern Health Management Associates Inc. The USA directly and
indirectly employs nurses, aides, therapists, and administrative personnel in Dade County.

A Medicare certified HHA, such as USA, can either provide home health services itself or
make arrangements with other certified or non-certified providers for home health
services. Most of the services claimed by USA were provided under contract with non-
Medicare certified nursing groups.

During FY 1993, USA was reimbursed under the periodic interim payment (PIP) method.
Payments under PIP approximate the cost of covered services rendered by the provider.
Interim reimbursement from Medicare totaled $12.3 million. Interim payments are
adjusted to actual costs based on annual cost reports. The USA submitted a cost report for
FY 1993 claiming costs totaling $l2 million.
Page 3 - Bruce C. Vladeck

Authority and Requirements for Home Health Services

The legislative authority for coverage of home health services is contained in sections
1814, 1835, and 1861 of the Social Security Act; governg regulations are found in title
42 of the Code of Federal Regulations (CFR); and HCFA coverage guidelines are found in
the Medicare HHA Manual.

Fiscal Intennediary Responsibilties


The HCFA contracts with PIs, usually     'large inurance companies, to assist them in
admisterig the home health benefits program. The FI for USA is AEtna Life and
Casualty. The PI is responsible for:

            ~ processing claims for HHA services,

            ~ performing liaison activities between HCFA and the HHAs,

            ~ makng interim payments to HHAs, and
            ~ conducting audits of cost reports submitted by HHAs.


SCOPE

                             determine whether the home health care services claimed
The objective of the audit was to

by USA met Medicare reimbursement guidelines. The audit was performed under the
auspices of Operation Restore Trust and was initiated by a request from HCF A's Atlanta
Regional Office and its regional home health intermediary. The individuals who
participated in this audit are shown on Appendix D.

The USA claimed 151,015 services on 8,700 claims for FY 1993. We reviewed a
statistical sample of 100 claims totaling 1,784 services for 96 different individuals
(4 individuals appeared twice in the sample). We are reporting the overpayment projected
from this sample at the lower limit of the 90 percent confdence intervaL. The claims were
submitted by USA during the period January 1, 1993 through December 31, 1993.
Appendix A contains the details on our sampling methodology. Appendix C contains the
results and projection of our sample. We used applicable laws, regulations, and Medicare
guidelines to determine whether the services claimed by USA met the reimbursement
guidelines.

In addition to using the sample to determine the amount of overpayment, we used the
sample to determine the percentage of certain characteristics. Appendix B contains the
details of the results of these projections.
Page 4 - Bruce C. Vladeck

Generally, for each of the 100 claims, we interviewed:


       ~ the beneficiary or a knowledgeable acquaintance,


       ~ the physician who certified the plan of care, and

       ~ the beneficiary's personal physician.


Our interviews included validation of beneficiaries' and physicians' signatures when
necessary.

We interviewed 72 of the 96 beneficiaries. We were unable to interview 24 of the
beneficiaries or a close acquaintance because they were either deceased or had moved out
of the area. We were not able to interview five physicians because they had moved out of
the area. Two of these physicians certified the plan of care for two beneficiaries who
appeared twice in the sample.

We reviewed supporting medical records maintained by USA for all of the claims in our
sample. The records were also reviewed by the FI's medical personnel to determine
whether the medical records for the claimed services met the reimbursement requirements.

'rVe did not conduct a review of USA's internal controls. Specifically, we did not review
USA's policies and procedures to monitor the work performed either by their own staff or
subcontractors. However, during our review of medical records, we found documentation
that indicated USA did monitor its own employees and subcontractors.

Our field work was performed at USA's administrative office in Hialeah, Florida and the
FI's office in Clearwater, Florida. Interviews were conducted in the beneficiaries'
residences and the physicians' offces. Our field work was started in January 1995 and
completed in December 1995. Our audit was conducted in accordance with generally
accepted governent auditing standards.

                          DETAILED RESULTS OF REVIEW"

Our audit showed that 32 percent of the claims submitted by USA during FY 1993 did not
meet the Medicare reimbursement requirements.

Based on a statistical sample, we estimate that USA received overpayments totaling at least
$1.7 million and using the 90 percent confidence interval, we believe the overpayment is
between $1.7 million and $3.2 million. Although we found documentation that USA
monitored its employees and subcontractors, this monitoring was not adequate to ensure
that claims submitted were for services that met Medicare reimbursement guidelines.
Page 5 - Bruce C. Vladeck

The regilations and guidelines clearly
hold the HHA responsible for
payments made for services performed
by either their own staff or by                  32% OF CLAIMS DID NOT
subcontractors.                                   MEET REQUIREMENTS
Criteri for Services Provided by                         Serves Claimed   Servces Were
Subcontractors                                           But Not Proded   Unnecessary or
                                                              1% \        Unreasonable
                                                                               23%
Section 409.42(g) of title 42 CFR
               home health services
states that",. .

must be furnshed by, or under
arrangements made by a participating
HHA." Section 200.2 of the Medicare
                                              Services Met
                                                                          ~
                                                                          '"
                                                                                 -
                                                                                  Beneficiar Not
                                                                                 Homebound 5%


                                                                            Physicians Did Not
                                                                          Autorte Servces 3%
HHA Manual states that "In permitting"       ReImbursement
home health agencies to furnsh                Requirements
                                                  68%
services under arrangements it was not
intended that the agency merely serve
as a biling mechanism for the other
part. Accordingly, for services
provid¡;d under arrangements to be covered the agency must exercise professional
responsibility over the arranged-for services." In addition, the Medicare HHA conditions
of participation at 42 CFR 484.   14(h) set forth the requirements governng home health
services furnshed under arrangements.

Services That Were Not Reasonable or Necessary


Our review showed that 23 of the 100 claims were for 262 services which were not
considered reasonable or necessary by the intermediary's medical review personneL.


The regulations at 42 CFR 409.42 provide that the individual receiving home health
benefits must be "... in need of intermittent skilled nursing care or physical or speech
therapy. . . ." Section 203.1 of the Medicare HHA Manual states that the beneficiary's
health status and medical need as reflected in the plan of care and medical records provide
the basis for determination as to whether services provided are reasonable and necessary;
and section 205.1. B.1 states that "Observation and assessment of the beneficiary's
condition by a licensed nurse are reasonable and necessary skilled services when the
likelihood of change in a patient's condition requires skilled nursing personnel to identify
and evaluate the patient's need for possible modification of treatment or initiation of
additional medical procedures until the beneficiary's treatment regime'is essentially
stabilized. "
Page 6 - Bruce C. Vladeck

The AEtna medical review personnel reviewed the records for the 23 beneficiaries and
concluded that the medical records did not support the reasonableness or necessity of the
services. The records for nine of the beneficiaries showed that the skiled services
provided were not consistent with the nature and severity of the documented ilness or
injury; the records for thee of the beneficiaries did not show any intabilties, physician
intervention, or changes in the plan of treatment which would require skilled nursing
services; the records for four of the beneficiaries did not show objective comparative data
to establish that the condition of the beneficiary wil improve, or tht the services were
necessary to the establishment of a malntenance program; the    records for four of the
beneficiaries showed that they received' psychiatric care from nurses who did not have the
proper credentials to provide psychiatric care; the records for two beneficiares-did not
document skilled services to support the aide services provided; and one beneficiar
received medical social services that did not address specific problems.

Services to Beneficiaries Who Were Not Homebound

Our review showed that 5 of the 100 claims were for 69 services to beneficiaries who
were not homebound at the time the. services were provided. The interviews of the
beneficiary or a close acquaintance of the beneficiary, and the certifying physician
indicated that the beneficiaries by their own assessment, or that of the physicians, were not
homebound at the time the services were provided. In all cases, USA hcd documentation,
such as the plan of care that indicated the individual needed skilled care and was
homebound.

The regulations at 42 CFR 409.42, provide that the individual receiving home health
benefits must be "... confined to the home or in an institution that is neither a hospital nor
primarily engaged in providing skiled nursing or rehabilitation services...." Title 42 CFR
424.22 states that Medicare pays for home health services only if a physician certifies the
services are needed and that the individual is homebound. The Medicare HHA manual at
section 204.1 contains guidance regarding the "homebound" requirement.

The AEtna medical review personnel reviewed the records for the five beneficiaries that
we determined did not meet the homebound requirement. They concluded that the medical
records either did not support a homebound determination or were inadequate to help them
make the determination. The prescribing physicians for two of the beneficiaries stated that
they were not homebound. We did not locate the prescribing physician for the other thee
beneficiaries.

We did not interview the personal physicians because the tive beneficiaries did not have a
personal physician different from the physician who signed the plan of treatment. We
concluded that the IÏve beneficiaries did not meet the homebound criteria. Our conclusion
is based on the opinion of medical professionals, as well as the results of beneficiary
interviews which included a description of their daily activities at the time of the services.
Page 7 - Bruce C. Vladeck

Physicians Did Not Authorize the Services

Our review showed that 3 of the 100 claims were for 17 services not authoried by a
physician. In one case, the provider rendered and claimed one service in excess of the
services authorized by the physician in the plan of care. In the other two caes, there
were no plans of care applicable to the periods under review.

The laws, regulations and guidelines recognie that the physician plays an importt role
jn determinng the utilization of services. The legislation specifies that payment for
 services may be made only if a physiciàn certifies the services were required because the
individual was homebound and needed skilled nursing care. The regulations (42 CFR
424.22) state that Medicare pays only if a physician certifies the services were needed. In
addition, the regulations at 42 CFR 424,22 require all care to follow a physician's plan of
care.

We discussed these cases with AEtna officials and they advised that claims not duly
authorized should be denied.


Services Claimed but Not Provided

Our review showed that one of the 100 claims was for 5 services that were not provided.
The medical records maintained by USA contained the required documentation including
signatures of the beneficiary indicating that the services were provided. However, the
beneficiary involved with this claim stated that her signatures were forged.

During the initial interview of the beneficiary, she told us that she had not received the
services on the dates that were on the sampled claims. A review of the medical records
indicated that the beneficiary had signed for the services. We reinterviewed the
beneficiary and showed her the signatures on the visit logs and she stated that her
signature was forged.

Effect

Our audit showed that 32 percent of the FY 1993 claims submitted by USA were
overstated. We projected the sample overpayment amounts to the sampling frame. The
90 percent confidence interval is $1,656,320 to $3,173,546 with a midpoint of
$2,414,933. Using the lower limit of the 90 percent confidence interval, we are
95 percent confident that USA was overpaid by at least $1,656,320 for unallowed home
health services.
Page 8 - Bruce C. Vladeck

USA Did Not Properly Monitor Subcontractors

Although documentation found in the fies indicated that monitoring was being done to
ensure that beneficiaries met the homebound and medical necessity criteria to receive HHA
services, it failed to disclose the problems that we found,

The HHA coverage guidelines issued by HCF A provide that the HHA has essentially the
same responsibilties for services provided by subcontractors as for services provided by
their salaried employees. Durig revi~ws of the beneficiaries' medical records maintained
by the HHA, we found documentation that showed USA did monitor subcontractors.
However, in several intances the documentation showed that the beneficiaries-were stable
after an initial period of covered care, usually 3 weeks, yet no action was taen to
discharge them until the certification period was over. In other intances, the services
provided were not consistent with the nature and severity of the ilness or injury of the
beneficiary. We also found one intance where the services claimed were more than what
was ordered by the physician, and two other intances where the services were provided
without a plan of care signed by a physician. In all these cases, the monitoring visits did
not explain the discrepancies.


                                 RECOMMNDATIONS

We recommend that HCFA:

       o Require the FI to instruct USA on its responsibilities to properly monitor its
               subcontractors for compliance with Medicare regulations and HCF A
               guidelines.

       o Monitor the FI and USA to ensure that corrective actions are effectively
             implemented.

       o Direct the FI to investigate all cases of possible fraud and refer them as
               necessary to the OIG's 01.

       o Recover all overpayments.

In its written response to our draft report, HCF A agreed with our recommendations. The
complete text of HCFA's response is presented as Appendix E to this report.
APPENDICES
                                                                              APPENDIX A


                      AUDIT OF USA HOME HEALTH SERVICES
                            SAMPLING METHODOLOGY

OBJCTIV:
The sample objective was to estimate overpayments for claims that did not meet Medicare
reimbursement requirements. To achieve our objective, we selected a statistical sample of
home health claims from a universe of. home health claims submitted by USA durig the
FY ended December 31, 1993. We obtained claim documentation and interviewed
beneficiaries and physicians identified in the claim. We used the results to project the
overpayments for services that were not reimbursable to USA. durig the FY ended
December 31, 1993.

POPULATION:

The universe consisted of 8,700 HHA claims representing $12,296,234 in benefits paid by
the FI to USA during the FY ended December 31, 1993.

SAMPLING UNIT:

The sampling unit was a paid home health claim for a Medicare beneficiary. A paid claim
included multiple services and items of cost for the home health services provided.

SAMLING DESIGN:

A simple random sample was used.

SAMPLE SIZE:

A sample of 100 claims.

ESTIMATION METHODOLOGY:

We used the cost per visit for each type of service reported by USA in the unaudited cost
report for FY ended December 31, 1993. For the unallowed services on a sample unit,
we computed the amount of error by multiplying the number of unallowed services for
each type of claim by the cost reported by USA in the unaudited cost report for FY ended
December 31, 1993.

Using the Department of Health and Human Services, GIG, Ottce of Audit Services
Variables Appraisal Program, we estimated the overpayments that either did not meet
reimbursement requirements, were not authorized, or were not rendered.
                                                                             APPENDIX B
                                                                                 Page 1 of 2


                        AUDIT OF USA HOME HEALTH SERVICES
                              ATTRIBUTES PROJECTIONS


REPORTING THE RESULTS:

We used our random sample of 100 claims out of 8,700 claims to project the occurrence of
certin types of errors. The lower and upper limits are shown at the 90 percent confdence
leveL. The results of these projections are presented below:

Claims That Did Not Meet the Requirements
                        i

Quantity Identified in th'e Sample                                          32
Point Estimate                                                              32.0%
Lower Limit                                                                 24.3%
Upper Limit                                                                 40.5%


Services That Wert. Not Reasonable or Not Necessary

Quantity Identified in the Sample                                           23
Point Estimate                                                              23.0%
Lower Limit                                                                 16.3%
Upper Limit                                                                 30.9%


Services to Beneficiaries Who Were Not Homebound

Quantity Identified in the Sample                                            5
Point Estimate                                                              5.0%
Lower Limit                                                                 2.0%
Upper Limit                                                                 10.2%


Services That Were Not Properly Authorized by Physicians

Quantity Identified in the Sample                                            3
Point Estimate                                                               3.0%
Lower Limit                                                                  0.8%
Upper Limit                                                                  7.6%
                                                           APPENDIX B
                                                             Page 2 of 2


                       AUDIT OF USA HOME HEALTH SERVICES
                             ATTRIBUTES PROJECTIONS


REPORTING THE RESULTS:

Services Claimed but Not Provided

Quantity Identified in the Sample                          1-
Point Estimate                                             1.0%
Lower Limit                                                0.0%
Upper Limit                                                4.6%
                                                                              APPENDIX C


                           AUDIT OF USA HOME HEALTH SERVICES
                                 VARABLES PROJECTIONS


REPORTING THE RESULTS:

We used our random sample of 100 claims out of 8,700 claims to project the value of claims
that did not meet the requirements. The lower and upper limits are shown at the 90 percent
confdence leveL. The results of these projections are presented below:

Claims That Did Not Meet the Requirements


Identified in the sample
  Number of Claims                                                                32
  Value                                                                      $ 27,758
Point Estimate                                                               $2,414,933
Lower Limit                                                                  $1,656,320
Upper Limit                                                                  $3,173,546
                                                                         APPENDIX D


                      MAJOR CONTRIUTORS TO THIS REPORT


From HHS OIG OAS              Roy C. Wainscott, Region iv HCFA Audit Manager
                               (404) 33l-2446 ext. l06
                              Albert Bustilo, Senior Auditor
                             Mario Pelaez, Auditor in Charge
                             Catherine Burside, Auditor
                             James Duncan, Auditor
                             Maritza Hawrey, Auditor
                             Lourdes Punta net, Auditor

From HCF A Region iv         Rita Brock-Perini, Nurse Consultant
                             Isabel Fran, Nurse Consultant
                             Jerri Devon, Nurse Consultant

From the Regional Home
Health Intermediary          Theresa S. Ginnetti, RN Supervisor Benefit Integrity
                             Jane Dallara, RN
                             Minne Johnson, RN
                             Veronica Lozada, Analyst
                             Sandi Maitland, RN
                             Karen McCall, LPN
                             Lori Peters, RN
                             Mary Tennies, RN
                                                                                  APPENDIX E


 . \iiU"C'I..




(~4-
''''..,::
                      DEPART2\1ENT OF HEALTH &. HU,\1AI\ SERVICES
                                                                                         Health Care Financing Administrat:


                                                                                         The Administrator
                                                                                         ..Sshington, D.C. 20201




                DATE:               ftÀÜG .1 A4 '1'


                TO:             - June Gibbs Brovn
                 -
                 --              Inpector General ',. . ~ g J I
                FROM:            Bruce C. VladeO/". U-~
            --                   Admstrator ~ V-
                SUBJECT: Offce of Inspector General (OIG) Draf Report: "Review of Costs Claied
                                ':. by Home Health Servces of South Florida Inc., d//a USA Home Healtl
                                   Servces, i' (A-04-95-0 1105)

                We reviewed the above-referenced report which discusses clais submiaed by USA
                Home Health Servces that did not meet Medicare reimbursement gudel nes. Our
                comments are attached for your consideration.

                Than you for the opportnity to review and comment on ths report.

                Attacluent

                 IG _
                 EAa
                 SAQ
                 PDIG
                 CIG-AS
            ., .DEC
                           JI   -
                 DIG-EI
                DrG-
                nIO.MP
                                -
                AIO.LC
                OGc/G ~
                RxccSc
                D3te Seiie -)
                                                                                                                -- -,
                                                                                                         -     ~-
                                                                                                         c.
                                                                                            ~ .--              ;...           :
                                                                                            r-~ ..            2;
                                                                                            ~.
                                                                                            r-; .-
                                                                                                              i"
                                                                                                              C
                                                                                                                        l ;
                                                                                            :::.                        ._-:
                                                                                            .                             -,
                                                                                           r
                                                                                                --            -r        --;
                                                                                                     ,
                                                                                                         -.
                                                                                                              '''-:
                                                                                                     -
                                                                                                     ~        ..-
                                                                  APPENDIX E
                                                                  PAGE 2 OF 3




               Health Care Financing Admstration æCFA) Commenti on
   Offce Of Inspector General (OIG) Draf Report entitled: "Review of (:osts Claied by
      Home Health Servces of South Florida Inc., d//a USA Home Heaith Servces"
                                 (A-04-95-01105)
 OIG Recommendation
                                                     -
 HCF A should req1Ùe FiscaJ Jnternedies (FT) to instrct USA Home i Iealtl Servces on
 its_responsbilties to properly monitor its subcontractor for compliance' .vth-Medicare
 regmations and HCF A gudelies. .

-lCFA Response

 We concur. The HCFA Regiona Offce (RO) will instrct the FI to conduct focused
 medical reviews on futue clais from USA and instrct USA Home He lith Servces on
 its responsibilties to Medicare. The HCF A RO will also ins1rct the FI to refer US'A
Home Health Servces to the state agency to monitor USA's futue comi; liance with rules
of subcontrctor supervsion.

OIG Recommendation

HCF A should moiutor FI and USA to ensure that corrective actions are t ffectively
implemented.

ReFA Response

We concur. The HCF A RO wi monitor corrective actions.

OIG Recommendation
  ~
HCF A should diect the FI to investigate all cases of possible fraud and 1 efer them as
necessar to the OIG, Offce of Investigations.
                                                                APPENDIX E
                                                                PAGE 30F 3




 Page 2


 HCF A Response

 We concur. As ths is CWTent practice, HCF A wi contiue to investiga1 e al cases of
 frud and refer them to the OIG-, Offce of Investigations.

 OIG Reèmmendation

 HÇJ A should recover all overayments.
  ....
 HeF A Response

We concur. We will take the appropriate actions necessar to intrct Ai ~tna Life and
Casuaty, the Regiona Home Health Interediar, to recover al overpay ments from
Home Health Servces of South Florida Inc., for home health care servcf s claied by the
provider thaidid not meet Medicare reimbursement gudelies. To reco, er the '
overpayments related to ths review, the OIG Wil need to provide Aetna :"ife and
. Casualty with copies of records that support the .fidings: regardig the 3: clais.




  ..~
